No. 20-315
IN THE SUPREME COURT OF THE UNITED STATES
JOSE SANTOS SANCHEZ, ET AL.,
PETITIONERS
v.
ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND SECURITY, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE RESPONDENTS, via email and by first-class mail, postage prepaid, this 24th day of
March, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,963 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct. Executed on March 24, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

March 24, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2218. Thank you for yourconsideration of this request.

20-0315
SANCHEZ, JOSE S., ET AL.
ALEJANDRO N. MAYORKAS, SEC. OF HOMELAND
SECURITY, ET AL.

SAMEER AHMED
HARVARD IMMIGRATION AND
6 EVERETT ST.
SUITE 3105
CAMBRIDGE, MA 02138
617-495-0638
SAHMED@LAW.HARVARD.EDU
LOREN L. ALIKHAN
OFFICE OF THE ATTORENY GENERAL FOR
DC
400 6TH STREET, NW
SUITE 8100
WASHINGTON , DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV
JAIME WINTHUYSEN APARISI
8630 FENTON STREET
SUITE 932
SILVER SPRING, MD 20910
301-562-1416
JAIME@APARISI.COM
MARGARET L. CARTER
O'MELVENY & MYERS LLP
400 SOUTH HOPE STREET
18TH FLOOR
LOS ANGELES, CA 90071
213-430-6000
MCARTER@OMM.COM

ETHAN D. DETTMER
GIBSON, DUNN & CRUTCHER LLP
555 MISSION STREET
SAN FRANCISCO , CA 94105
415-393-8200
EDETTMER@GIBSONDUNN.COM
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
EMILY JOHNSON HENN
COVINGTON & BURLING LLP
3000 ELCAMINO REAL
5 PALO ALTO SQUARE
PALO ALTO, CA 94306-2112
650-632-4715
EHENN@COV.COM
JENNIFER KEIGHLEY
ORRICK
1152 15TH ST NW
WASHINGTON, DC 20005
212-506-3584
JKEIGHLEY@ORRICK.COM
ERICA C. LAI
COHEN & GRESSER LLP
2001 PENNSYLVANIA AVE. NW
SUITE 300
WASHINGTON, DC 20006
202-851-2070
ELAI@COHENGRESSER.COM

JOEL W. NOMKIN
PERKINS COIE BROWN & BAIN PA
2901 N. CENTRAL AVE.
SUITE 2000
PHOENIX, AZ 85012-2788
602-351-8000
JNOMKIN@PERKINSCOIE.COM
602-648-7185(Fax)
REEDY SWANSON
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004-1109
202-637-5600
REEDY.SWANSON@HOGANLOVELLS.COM
202 637 5764(Fax)
ANDREW WILHELM
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON, DC 20036-5306
202-887-3556
AWILHELM@GIBSONDUNN.COM
202-530-9612(Fax)
DAYNA J. ZOLLE
CONSTITUTIONAL ACCOUNTABILITY
CEWNTER
1200 18TH ST. NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG

RISHI ZUTSHI
CLEARY GOTTLIEB STEEN & HAMILTON LLP
ONE LIBERTY PLAZA
NEW YORK, NY 10006
212-225-2085
RZUTSHI@CGSH.COM

